           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    CONTRACT WITH MATHEMATICA
       POLICY RESEARCH, INC.,
     FOR SERVICES TO EVALUATE
         YOUTH TRANSITION
      DEMONSTRATION PROJECTS

    December 2009   A-06-09-19061




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                            SOCIAL SECURITY
MEMORANDUM

Date:      December 29, 2009                                                       Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Contract with Mathematica Policy Research, Inc., for Services to Evaluate Youth
           Transition Demonstration Projects (A-06-09-19061)


           OBJECTIVE

           The objectives of our audit were to (1) ensure the Social Security Administration (SSA)
           received the goods and services for which it contracted and (2) review the services
           provided by Mathematica Policy Research, Inc., (Mathematica) and the related costs
           charged to SSA for adherence to the negotiated contract terms and applicable
           regulations.

           BACKGROUND
           SSA contracted with Mathematica to support the development, implementation, and
           evaluation of the Youth Transition Demonstration (YTD) interventions designed to help
           youth with disabilities maximize their economic self-sufficiency as they transition from
           school to work. 1 To better understand how to support individuals with disabilities in
           reaching their full economic potential, SSA initiated a multi-faceted research agenda to
           test strategies to best identify how individuals with disabilities can become self-sufficient
           and less reliant on Social Security benefits. The contract for this project stated SSA will
                                                                                      2
           test the effectiveness of altering certain Supplemental Security Income (SSI) rules as
           an incentive to encourage recipients with disabilities or blindness to initiate work or
           increase their work activity and earnings. The contract period of performance was
           September 30, 2005 to September 29, 2014. As of September 2008, there were nine
           modifications to this contract (see Appendix D), and SSA had expended approximately
           $17.1 million of the $46.8 million contract award.



           1
            This project is being conducted under the authority of section 1110(b) of the Social Security Act,
           42 U.S.C. § 1310(b). See Appendix C for a description of the services in the YTD demonstration projects.
           2
             Under the SSI program, Social Security can provide benefits to children who are disabled and whose
           families have little income or resources.
Page 2 - The Commissioner


The Office of Budget, Finance and Management (OBFM) provides leadership and
oversight of key SSA programs and initiatives. In OBFM, Contracting Officers in the
Office of Acquisition and Grants are responsible for SSA’s procurement and contracting
functions, and the Office of Finance directs SSA’s central accounting activities and
issues payments for this contract. An Agency-authorized representative is appointed as
the Government Contracting Officer Technical Representative (COTR) to monitor the
contract’s technical requirements, including overseeing the contractor’s progress and
reviewing invoices. The COTR for the Mathematica contract was located in the Office
of Program Development and Research (OPDR) in SSA’s Office of Retirement and
Disability Policy.

Our review focused on services provided by Mathematica and the related costs charged
to SSA for the first 3 years (September 30, 2005 through September 30, 2008) of the 9-
year contract period. The contract stipulates that work performed be coordinated with
other SSA-sponsored studies and build on background research, conceptual
frameworks, measurement strategies, and evaluation findings from ongoing and
previous SSA evaluation projects. The contract specifically identifies three previous
YTD-related projects associated with this contract. Review of available documentation
indicated that since 1999, SSA spent approximately $25.3 million on these previous
projects. See Appendix B for the scope and methodology of our review and
Appendix C for additional background.

RESULTS OF REVIEW
For the first 3 years of the 9-year contract period, SSA received the goods and services
for which it contracted. However, a lack of tangible results achieved to date through
this and previous YTD projects funded by SSA raises concerns as to whether additional
expenditures on YTD projects will yield significant benefit to SSA. Also, services
provided and costs charged to SSA did not always adhere to contract terms and
applicable regulations. Noncompliance with internal controls over project funding,
contract payments, and use of subcontractors allowed these instances to occur without
timely detection. The control weaknesses resulted in an overpayment of fixed fees and
travel costs, disbursements to unauthorized subcontractors, and use of employees who
did not receive a suitability determination under this contract.

RETURN ON YTD INVESTMENT

Work performed under this contract was intended to build on background research,
conceptual frameworks, measurement strategies, and evaluation findings from ongoing
and previous SSA evaluation projects conducted since 1999. To date, SSA has
received little tangible benefit from approximately $42.4 million spent on YTD-related
projects since 1999. In addition to $17.1 million expended under this contract through
September 2008, SSA spent approximately $25.3 million on three previous YTD-related
initiatives.
Page 3 - The Commissioner


Youth Continuing         In October 1999, SSA funded the Youth Continuing Disability
Disability Review        Review Project to test the impact of providing enhanced
Project                  employability services to youth aged 15 and 16 with disabilities.
                         This project operated for 3 years at a cost of approximately
$3.7 million. Although this project provided insight into the characteristics and program
transitions of child SSI recipients, it did not include information on the recipients’
participation in special education or other activities. According to SSA, the study
suffered from a weak evaluation design and had no control group for comparison.

YTD Cooperative           In September 2003, SSA awarded seven 5-year cooperative
Agreements                agreements, totaling approximately $21.2 million, to six State
                          agencies and universities to begin the YTD project. The goal of
these project sites was to develop service delivery systems intended to demonstrate
how communities integrate services and resources to achieve positive transition results
that include both post-secondary education and employment. The original project
design’s inability to withstand scientific scrutiny and inform policymakers about the
options for transition-age youth led SSA to fund additional research by the Disability
Research Institute on the feasibility of strengthening the YTD project by converting to a
random-assignment design. SSA ultimately terminated two of the seven cooperative
agreements before their expiration dates because of a lack of progress in meeting
established goals. SSA determined the designs of two additional projects would not
support a rigorous random-assignment strategy. However, project funding continued
because SSA believed the projects offered strong interventions—though SSA
discontinued research at the sites when the cooperative agreements expired.

Disability Research       In September 2003, SSA funded the Improving Employment
                          Outcomes for Youth with Disabilities: Learning from the
Institute Project
                          Youth Transition Demonstration Innovations project as part of
                     3
a 5-year, $18 million grant with the Disability Research Institute. The goal of this
project was to provide SSA and the participating YTD project sites with guidance to
develop a rigorous research design and evaluation plan.

To ascertain the cost-effectiveness of these expenditures, we asked senior SSA
officials 4 to describe the impact that $42.4 million spent over the past 10 years had on
SSA’s programs. We requested the officials provide examples of specific policies the
Agency implemented as a result of knowledge obtained through YTD projects and
provide us quantifiable results (for example, the number of project site participants that
became employed) and a summary of quantifiable program savings generated as a
result of various YTD projects completed to date. The officials strongly disagreed with

3
 SSA provided documentation indicating the YTD-related project work performed under this grant cost
                                                                         th
$392,947 funded through an amendment processed during the grant’s 4 year. However, documentation
provided by SSA indicated the grant also funded other YTD-related “Core Research Projects.” We could
not accurately determine how much of the $18 million grant was spent on YTD-related work because SSA
did not break down the grant costs to the specific projects or tasks associated with grant funding.
4
 We obtained input from the Deputy Commissioner, Retirement and Disability Policy and the Associate
Commissioner, OPDR.
Page 4 - The Commissioner


our conclusion that SSA received little in return for the $42.4 million spent on these
projects. According to SSA, 503 (25 percent) of 2,028 YTD participants were
employed full- or part-time from October through December 2008 while continuing to
receive SSA disability benefits. However, SSA officials could not provide us the
number of YTD participants who had been removed from SSA’s disability rolls since the
inception of the YTD project sites. In addition, SSA officials could not point to any
policy changes implemented or any quantifiable savings SSA experienced as a result of
YTD project expenditures.

A senior Agency official stated SSA’s decision to fund this research was made with the
understanding there were no guarantees that the proposed youth transition
interventions would be cost-effective. The purpose of demonstration research is to
answer a specific question. In this case, whether offering youth specific employment-
driven interventions and altering certain SSI rules will provide more effective incentives
for youth with disabilities or blindness to initiate work or increase their work activity. The
desired outcome was that these interventions and waivers would allow youth to
increase their earnings and become increasingly self-sufficient and less reliant on
Social Security benefits. This area of research was supported by SSA as well as
outside groups, such as disability advocates, and other Federal agencies, such as the
Department of Education. SSA will determine whether the interventions are cost-
effective only after the final evaluation is complete.

Recognizing that no research can guarantee benefits or cost-effective outcomes, we
question whether long-term commitments of substantial sums are prudent investments
without measurable interim impacts documenting progress and justifying further
investment. Before authorizing $42.4 million to answer the questions posed above,
SSA officials should have incorporated into the research design milestones that would
allow for periodic assessments of the project’s current and potential impact on SSA’s
programs—including cost-effectiveness—that could inform periodic decisions to commit
additional research funds. By deferring any assessments of demonstrated benefits or
return on investment until after all available funds are expended, it is difficult to
understand how decisionmakers are able to determine whether to spend $1,000 or
$100 million to answer the questions under consideration.

MEASURING YTD RESULTS

SSA did not establish specific milestones or key performance goals that could be
objectively measured and used to make informed decisions regarding the efficacy of
future project expenditures. SSA has not provided examples of specific policies
implemented as a result of knowledge obtained through YTD projects or a summary of
any quantifiable program savings generated as a result of more than $42 million
expended on various YTD projects over the past 10 years. A senior Agency official
indicated that predecessor YTD-related projects conducted over the past 10 years
encountered significant problems that diminished their effectiveness. While these
setbacks could reasonably have resulted in reconsideration of continued project
funding, SSA instead increased funding and expanded the projects. Given the history
Page 5 - The Commissioner


of setbacks and the substantial costs expended, SSA should have established clear
expectations, including cost-effectiveness, with measurable results and interim
assessments to inform decisions on continued funding. Instead, Agency officials plan
to perform a cost-benefit analysis only after the contract is completed.

SSA strongly disagreed with our conclusion and stated the outcome of this contract is
not policy changes or monetary savings to the Agency but rather a report that answers
whether the interventions successfully help youth transition into adulthood, which
informs SSA about the costs or savings to the Agency should such a program be
implemented. SSA stated the contract contains a deliverables schedule that provides
de facto milestones as to whether the Agency can expect to receive the product for
which it contracted. These include deliverables that enable staff in OPDR to confirm
whether the contractor is on track to deliver an answer to the research questions, such
as an evaluation plan, impact analyses, and a cost-benefit analysis. There are also
other outcomes that OPDR considers in the interim to ensure that Mathematica is
providing the services required, such as weekly, monthly, quarterly, and annual phone
calls, conferences, and reports. Project sites also have goals with regard to the number
of youth that should be enrolled by month and overall. These milestones are used to
give OPDR assurance that Mathematica will provide an answer to the research
questions.

A senior agency official stated that only after the final evaluation would a determination
be made as to whether the interventions were cost-effective. This, in turn, will allow
SSA to make specific policy recommendations that will help the Agency wisely choose if
and how to change the program. This official also stated that the Government
Accountability Office (GAO) believes this contract will provide answers to the questions
posed. He stated that in a 2008 report, 5 GAO declared that the YTD demonstration’s
ability to provide answers to the questions asked was “very strong.”

We note that the GAO report cited by the senior agency official also commented on
SSA’s management of demonstration project research. In the first sentence under the
caption What GAO Found, the report states, “Over the last decade, SSA has initiated
14 demonstration projects under its authority to test possible DI and SSI policy and
program changes; however, these projects have yielded limited information for
influencing program and policy decisions.” The report continues by stating SSA spent
$155 million on these projects and planned to spend another $220 million in coming
years, “Yet, these projects have yielded limited information on the impacts of the
program and policy changes they were testing.” On pages 25 and 26 of its report, the
GAO comments further on SSA’s management of demonstration research and states:

       In addition to not fully addressing our prior recommendations, SSA does
       not have written policies and procedures governing how it should review
       and operate its demonstration program. Accordingly, SSA does not have
       a written policy requiring SSA management to review its project officer’s
5
 Social Security Disability: Management Controls Needed To Strengthen Demonstration Projects (GAO-
08-1053), September 2008. http://www.gao.gov/new.items/d081053.pdf
Page 6 - The Commissioner


          demonstration projects on a regular basis. Standards for internal controls
          in the federal government state that managers should compare a
          program’s actual performance against expected targets and analyze
          significant differences. Although the new program management team
          reviewed each of the demonstration projects at the time of their
          appointment, SSA does not have a written policy requiring such a review
          process periodically throughout the design, implementation, and
          evaluation phases of each project.

Based on the lack of results achieved from the $42.4 million in YTD expenditures made
from Fiscal Years (FY) 1999 through 2008, we believe a substantial risk exists that
spending the $29.7 million remaining on this contract will provide little or no actual
benefit to SSA.

MEMORANDUM OF UNDERSTANDING

SSA funded YTD demonstration project sites in a method contrary to guidance provided
in the Social Security Act (Act). The Act 6 specifies three methods for funding
demonstration projects: grants, contracts, or cooperative agreements with States and
public and other organizations and agencies. Under the most recently completed YTD
project and initially under this contract, SSA funded YTD project site costs using
cooperative agreements SSA negotiated with the project sites. However, during the
course of this contract, SSA transitioned the funding of project site costs from these
cooperative agreements to Memorandums of Understanding (MOU) negotiated
between Mathematica and the project sites.

Based on the negotiations between the YTD project sites and Mathematica, the sites
submitted invoices to Mathematica, who in turn, forwarded the invoices to SSA. SSA
then reimbursed Mathematica for the invoiced costs plus 7.71 percent in administrative
     7
fees. We found no formal, written approval for Mathematica to obligate Federal funds,
and we observed that none of the nine contract modifications authorized MOUs
between Mathematica and the project sites.

According to OPDR staff, SSA officials were involved in the MOU process and
informally authorized the agreements between Mathematica and the project sites.
However, SSA did not provide any documentation to support approval of these
agreements by SSA, and we observed that none of the six MOUs negotiated by
Mathematica were signed by SSA officials. OPDR staff stated that funding the YTD
sites through MOUs negotiated by Mathematica simplified the acquisition process
compared with using grants, cooperative agreements, or contracts between SSA and
the sites. OPDR staff further stated that this arrangement was approved per an email
from an attorney in SSA’s Office of General Counsel. However, we do not believe this

6
    The Act § 1110(a)(1), 42 U.S.C. § 1310(a)(1).
7
 These fees were comprised of subcontract administrative, general and administrative, and fixed fees that
Mathematica added to the amounts billed by project sites.
Page 7 - The Commissioner


email relieved SSA of its duty to adhere to the Federal Acquisition Regulation (FAR)
requirement 8 that contracts be entered into and signed on behalf of the Government
only by contracting officers. Moreover, because the MOUs were not negotiated by
Government contracting personnel, there was no assurance that prices and other terms
negotiated by Mathematica were fair and reasonable or that MOU terms could be
enforced by SSA.

As of September 2008, SSA had paid Mathematica approximately $334,474 in
administrative fees in addition to approximately $4.3 million in project site cost
reimbursements billed to SSA. Further, we estimate that over the remaining term of
this contract, SSA will pay Mathematica an additional $1 million 9 in administrative and
fixed fees to process invoices from the six project sites.

EXCESS FIXED FEES AND TRAVEL COSTS

SSA applied incorrect fixed fees to nine invoices, resulting in $28,487 in excessive
payments to the contractor. Per the contract, Mathematica was allowed to charge a
4 percent fixed fee on YTD site payment amounts, but a higher 8.5-percent fixed fee on
most other billed amounts. On 8 of 21 invoices that included YTD site payments, 10
SSA incorrectly applied the 8.5-percent fixed fee to YTD site payment amounts, instead
of the 4 percent fixed fee required by the contract. As a result, SSA overpaid $31,729.
Additionally, we found that on one invoice, SSA incorrectly applied the lower YTD fixed-
fee percent to a subcontractor billing instead of the higher 8.5-percent fixed fee allowed
by the contract. This error resulted in a $3,242 underpayment. Mathematica incorrectly
computed these fees and incorporated the errors into invoices submitted to SSA.

SSA also reimbursed the contractor for subcontractor travel expenditures in excess of
the amount allowed by Federal travel regulations. According to the contract, the rates
at which the contractor is reimbursed for travel (per diem, personal vehicle mileage,
etc.) shall be no greater than those allowed by Federal travel regulations. We identified
21 invoices submitted during FYs 2007 and 2008 that included subcontractor travel
costs and determined SSA reimbursed the contractor for lodging, meal, and incidental
expenses that were approximately $1,918 in excess of allowable rates. In addition,
SSA reimbursed the contractor for $530 in rental car insurance (charges prohibited by
Federal travel regulations), and reimbursed another $3,268 without obtaining required
supporting documentation/receipts. Neither the contracting officer nor the COTR
detected these errors before payment certification.


8
    48 C.F.R. § 1.602-1(a).
9
 $13.56 million in FYs 2009 to 2012 YTD project site costs obligated under the MOUs Mathematica
negotiated with the project sites, multiplied by fees Mathematica charges to administer project site costs.
10
  Of the 41 invoices submitted for service periods from October 2005 through September 2008,
21 included YTD site payments, which resulted in fixed-fee payments to Mathematica totaling $868,535.
We verified the fixed-fee computations on all 21 invoices.
Page 8 - The Commissioner


UNAUTHORIZED SUBCONTRACTORS

Mathematica did not obtain written consent from the Contracting Officer authorizing it to
                                                                            11
contract with three subcontractors. SSA reimbursed Mathematica $125,522 for fees
billed by the unauthorized subcontractors.
         Subcontractor                 FY 2006        FY 2007           FY 2008            Total
     Romeo Consulting LLC              $     0        $ 4,375          $     659          $ 5,034
     SRI International                   7,470              0                689             8,159
     Social Solutions                        0              0            112,329           112,329
     Total                              $7,470         $4,375          $113,677           $125,522

The FAR allows the Contracting Officer to require consent to subcontract on a case-by-
case basis to adequately protect the Government’s interests. 12 Moreover, SSA
incorporated this requirement into the contract through a provision that states, “If the
Contractor has an approved purchasing system, the Contractor nevertheless shall
obtain the Contracting Officer’s written consent before placing the following
subcontracts: all subcontracts over $2,500.” According to SSA contract personnel, it
was difficult to monitor all invoices to ensure subcontractors were authorized. The
Contracting Officer certified invoices for payment without detecting the invoices
included billings from these subcontractors.

SUITABILITY DETERMINATIONS

SSA allowed 43 contractor and subcontractor employees to perform work under this
contract without having SSA’s Center for Personnel Security and Project Management
(CPSPM) complete required suitability determinations. 13 According to the terms of the
contract, Mathematica must submit a completed suitability form for each employee and
replacement employee (including each subcontractor employee) who performs under
the contract. 14 SSA’s protective and personnel security suitability program officers are
required to make a final suitability determination for each contractor employee.

CPSPM personnel provided a list of 311 individuals for whom it had made a suitability
determination under this contract. The listing showed 310 individuals were approved
and 1 was denied approval to work on this contract. A comparison of the individuals’

11
     This amount includes additional indirect costs and fixed fees charged by Mathematica.
12
     FAR, 48 C.F.R. § 44.201-1(a).
13
  Title 5, CFR § 731.104(a) states that to establish a person’s suitability for employment, appointments to
positions in the competitive service require the person undergo an investigation by the Office of Personnel
Management or by an agency with delegated authority from the Office of Personnel Management to
conduct investigations. At SSA, contract employees are investigated at the same risk level as Federal
employees who would be performing the same type of work. Refer to Appendix E for a list of contract
suitability factors.
14
  Performing under the contract is defined as either working on-site at an SSA facility (including visiting
the SSA site for any reason) or having access to Agency programmatic or sensitive information.
Page 9 - The Commissioner


names on invoices paid in FY 2008 to the CPSPM list identified 43 individuals whose
names did not appear on the suitability list for this contract. Further analysis of the
43 individuals revealed that suitability determinations were not performed for 20 of the
individuals.

The contract stated, “The Government will not permit contractor personnel to perform
under the contract until the pre-screening process is complete.” An OPDR employee
told us she believed suitability determinations were not required for individuals who did
not have access to sensitive information. This statement is inconsistent with the
contract terms, which state that SSA’s protective and personnel security suitability
program officers will make the final suitability determination for each contractor
employee who does not require access to program or sensitive systems information.

We found that the remaining 23 individuals had suitability determinations completed
under other contracts with SSA. OPDR personnel told us it was their understanding
that once a suitability determination was approved, a contract employee was cleared to
work on multiple contracts. However, CPSPM personnel stated that if a contract
employee works on more than one contract, the employee must be cleared for each
contract. CPSPM personnel stated suitability determinations were not performed
because they were not notified these 23 individuals worked on this contract. CPSPM
should be notified so SSA can determine whether the appropriate level of investigation
was conducted and its database records adjusted to reflect that the individual is working
on another contract.

In situations where contracts have similar suitability requirements, such a practice may
not create a significant risk. However, when the contracts have different suitability
requirements, there is a risk that individuals assigned to one contract may not have the
proper suitability determination to work under another contract. In addition, events
could occur or information could become known after the original suitability
determination that precludes an individual from working under a new contract. SSA
reimbursed Mathematica approximately $268,000 for work performed under this
contract by 40 employees without suitability determinations to work on this contract. 15

CONCLUSION AND RECOMMENDATIONS
For the first 3 years of the 9-year contract period, SSA received the goods and services
for which it contracted. However, based on a lack of demonstrated, tangible results
achieved through these as well as previous YTD projects, we question whether
spending the $29.7 million remaining on this contract will yield substantial benefit to
SSA. The Agency did not establish specific YTD performance goals that could be
objectively measured to ensure that benefits received through YTD projects exceeded
or were likely to exceed amounts expended, and allow for informed go/no-go project
funding decisions. Also, services provided and costs charged to SSA did not always

15
  Wages for the remaining three employees were not shown. The invoice only reported the number of
hours worked.
Page 10 - The Commissioner


adhere to contract terms and applicable regulations. Specifically, we identified control
weaknesses in several areas, including contract payments and use of subcontractors.
If SSA continues this contract, the Agency needs to strengthen controls to ensure
compliance with contract terms and applicable regulations.

We recommend that SSA:

1. Establish performance goals for the program benefits and/or administrative savings
   expected to result from continued project expenditures.

2. Establish key milestones tied to performance metrics that objectively measure the
   progress in achieving the benefits of this project to permit go/no-go decisions
   informed by quantifiable results.

3. Continue YTD project funding only if performance metrics demonstrate that program
   results or administrative savings are worth the continued project costs.

4. Fund any continued YTD project site costs using methods specified in the Act
   (grants, cooperative agreements, or contracts) that are negotiated and executed by
   SSA in a manner that serves the best interests of the Agency, can be appropriately
   enforced, and avoids payment of unnecessary administrative fees.

5. Recover the $28,487 in excess fees related to YTD site payments and the $5,716 in
   unallowed and questioned travel costs.

6. Verify the accuracy of fixed fees claimed on future invoices before payment
   approval.

7. Ensure subcontractors listed on invoices have been approved as authorized
   subcontractors before certifying an invoice for payment.

8. Ensure contractor personnel (including subcontractors) assigned to the contract
   receive a favorable suitability determination before allowing the individual to work on
   the project.

AGENCY COMMENTS
SSA disagreed with Recommendations 1 through 4 and agreed with Recommendations
5 through 8.

With regard to Recommendations 1 through 3, SSA responded that inserting
performance goals with respect to administrative savings or program benefits during the
demonstration project is inappropriate. The YTD project’s success cannot be reliably
predicted or measured before the research is completed. SSA stated it expects the
YTD project to answer whether interventions successfully help youth transition into
Page 11 - The Commissioner


adulthood and discussed its process for approving research projects. SSA referred to a
prior GAO report as support for the current design of the YTD project.

With regard to Recommendation 4, SSA stated its practice of allowing the contractor to
negotiate MOUs on the Government’s behalf fully complied with the Act and FAR. SSA
stated that any suggestion otherwise was unsubstantiated. SSA further stated that this
practice was reasonable, effective, and saved Government funds. The full text of
SSA’s comments is included in Appendix F.

OIG RESPONSE
We appreciate SSA’s comments but continue to believe strongly that SSA should
establish criteria to periodically determine whether spending tens of millions of dollars
on SSA program-related research is justified. We also believe strongly that
establishment of key performance milestones and measurement of progress toward
achieving those milestones would allow for more informed project funding decisions and
ensure taxpayer funds are well spent.

Regarding SSA’s disagreement with Recommendations 1 through 3, we reiterate that
SSA officials were unable to point to any tangible benefit SSA received as a result of
approximately $42 million spent on YTD research from 1999 through 2008. Instead,
SSA intends to spend approximately $29 million more over the next several years
before analyzing the cost-effectiveness of the project. SSA cited a 2008 GAO report to
support its opposition to establishing financial performance goals and project
milestones that can be used to objectively measure research progress. We discussed
SSA’s comments with GAO officials and believe our findings and recommendations are
consistent with information presented in the 2008 GAO report. To illustrate, GAO found
that SSA spent $155 million on 14 demonstration projects that yielded limited
information on the programs tested. GAO also found SSA did not have written policies
requiring management to regularly review demonstration projects and stated managers
should compare a program’s actual performance against expected targets and analyze
differences. 16

Regarding SSA’s disagreement with Recommendation 4, while SSA stated our
conclusion was unsubstantiated, it then acknowledged it amended the contract to allow
the contractor to negotiate MOUs on behalf of the Government. Our point is that
instead of paying project site costs directly to the sites under cooperative agreements,
SSA now funds project site costs through an intermediary (Mathematica), which
charges a 7.71-percent administrative fee to process the site payments. Had SSA
continued to fund project sites directly under cooperative agreements instead of
transitioning this function to Mathematica, it could have avoided approximately
$300,000 in administrative fees. We believe our position is in line with recent guidance
from OMB regarding the use of contractors. In a July 29, 2009 memorandum, OMB
stated that, while contractors provide vital expertise to the Government, agencies must

16
     See Footnote 5.
Page 12 - The Commissioner


be alert to situations in which excessive reliance on contractors undermines the
Government’s ability to accomplish its missions. OMB further states that overreliance
on contractors can lead to the erosion of the in-house capacity that is essential to
effective Government performance.




                                               Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Background on the Services to Evaluate Youth Transition
             Demonstration Projects

APPENDIX D – Contract Modifications for Services to Evaluate Youth Transition
             Demonstration Projects

APPENDIX E – Suitability Factors

APPENDIX F – Agency Comments

APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                              Appendix A

Acronyms
Act           Social Security Act
CDB           Childhood Disability Benefits
C.F.R.        Code of Federal Regulations
COTR          Contracting Officer Technical Representative
CPSPM         Center for Personnel Security and Project Management
FAR           Federal Acquisition Regulation
FY            Fiscal Year
GAO           Government Accountability Office
Mathematica   Mathematica Policy Research, Inc.
MOU           Memorandum of Understanding
OBFM          Office of Budget, Finance and Management
OPDR          Office of Program and Development Research
SSA           Social Security Administration
SSI           Supplemental Security Income
U.S.C         United States Code
YCDR          Youth Continuing Disability Review
YTD           Youth Transition Demonstration
                                                                     Appendix B

Scope and Methodology
To accomplish our objectives, we:

•   Reviewed the contract between the Social Security Administration (SSA) and
    Mathematica Policy Research, Inc., (Mathematica) (Contract Number SS00-05-
    60084) to assess the contractor’s responsibility.

•   Reviewed the applicable sections of the Federal Acquisition Regulation,
    Administrative Instructions Manual System, SSA Acquisition Regulations, and
    Department of Health and Human Services’ Project Officers’ Contracting Handbook.

•   Interviewed Contracting Officers in the Office of Acquisition and Grants, the
    Contracting Officer Technical Representative (COTR) in the Office of Program
    Development and Research (OPDR), and staff in the Office of Finance to discuss
    invoice payments.

•   Reviewed the records used to monitor the contractor’s performance and assessed
    whether SSA and Mathematica performed in accordance with the contract.

•   Obtained a list from the Office of Finance identifying all 41 invoices totaling
    $17,128,821, paid under this contract for services received through
    September 2008. We reviewed these invoices to ensure (1) SSA paid amounts
    approved in the contract; (2) invoices were approved by both the Contracting Officer
    and COTR before payment of invoices; (3) SSA paid invoices timely in accordance
    with the terms of the contract; and (4) invoice amounts were recorded correctly.

We determined that the data used for this audit were sufficiently reliable to meet our
audit objectives. We performed our audit between August 2008 and September 2009
in Dallas, Texas. The principal entities audited were the Offices of Acquisition and
Grants and Finance under the Deputy Commissioner for Budget, Finance and
Management; and OPDR under the Deputy Commissioner for Retirement and Disability
Policy. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.
                                                                                   Appendix C

Background on the Services to Evaluate Youth
Transition Demonstration Projects
EVALUATION OF YOUTH TRANSITION DEMONSTRATION PROJECT SITES

On September 30, 2005, SSA awarded Mathematica Policy Research, Inc., a 9-year
contract to develop and evaluate Youth Transition Demonstration (YTD) project
strategies, determine overall costs to the Government for implementing these
strategies, and test the effectiveness of altering Supplemental Security Income (SSI)
program rules. The contract is valued at $46.8 million. 1 In addition, the contract
included funding for the creation of three additional project sites. Evaluations will be
conducted at these sites as well as the five remaining sites funded through cooperative
agreements.

Purpose of the Contract

The purpose of this contract is to support the development, implementation, and
evaluation of the YTD interventions designed to help youth with disabilities maximize
their economic self-sufficiency as they transition from school to work.
                                                                                               2
The transition process for a child receiving SSI or Childhood Disability Benefits (CDB)
as they reach age 18 can present many challenges. All child SSI recipients’ eligibility is
redetermined under the adult SSI requirements at age 18. Furthermore, many SSI
youth are also preparing for life beyond school. The choices made during this time are
critical for their future employment, earnings, and self-sufficiency.

To better understand how to support individuals with disabilities in reaching their full
economic potential, SSA has initiated a multi-faceted research agenda to test strategies
to best identify how individuals with disabilities can become self-sufficient and less
reliant on SSI/CDB benefits. Through this contract, SSA invested resources in
developing and evaluating strategies that maximize the economic self-sufficiency of
youth with disabilities as they transition from school to work. This research was to
generate empirical evidence, based on both process and random-assignment
evaluations, on the impacts of SSI waivers and enhanced coordination of services for
youth with disabilities. Under this project, SSA would test the effectiveness of altering

1
    Contract Number SS00-05-60084. The contract value listed is as of September 18, 2008.
2
 The Social Security Act § 202(d); 42 U.S.C. § 402(d), authorizes childhood disability benefits. Moreover,
20 C.F.R § 404.350 indicates that an adult child of a retired, disabled, or deceased worker is entitled to
CDB based on the worker’s earnings if the individual is 18 years or older and had a disability that began
before he or she reached the age 22.


                                                   C-1
certain SSI rules as an incentive to encourage recipients with disabilities or blindness to
initiate work or increase their work activity to increase their earnings. This project is
being conducted under the authority of section 1110(b) of the Social Security Act.

SSA awarded cooperative agreements to seven project sites in six States to begin this
work. These projects worked with youth aged 14 through 25 who receive SSI or CDB
and those at-risk of receiving such benefits, including those who have a progressive
disability, a prognosis for decreased functioning, or an existing disabling condition
before age 18 that would make them eligible for benefits. The evaluation design of
YTD strategies was to include a process evaluation of all existing and additional project
sites involved and yield important information in understanding how to assist youth in
the transition process. In addition, sites interested in random assignment could
participate in an impact analysis to assess the impact results of the selected
interventions. In terms of project site development, the contractor worked with seven
existing YTD project sites as well as identifying and developing three additional project
sites willing to participate, with the requirement that they adhere to a random
assignment evaluation design. In total, six project sites would be involved with the
random-assignment portion of the evaluation.

Evaluation Design

The evaluation was to measure the impact of SSI waivers and enhanced coordination
services intended to promote the economic self-sufficiency of youth with disabilities and
test overall strategies to improving the employment, educational, and income outcomes
of youth with disabilities as they transition from school to work. The three components
of this evaluation included a process, impact, and cost-benefit analysis.

Process Evaluation

To develop an effective strategy for best assisting youth with disabilities based on the
information generated by this demonstration project, SSA envisions a process
evaluation that will collect information on the following.

•   The implementation of the SSI waivers and increased services to youth, including
    how the SSI waivers affected the design of the intervention.
•   Uptake issues (identifies the scope of the service population).
•   The kinds of services and/or supports delivered to participants and controls.
•   How services are delivered.
•   How the participants viewed the delivery of such services.

The process evaluation should also include full documentation of the implementation
plan, including timelines for major milestones and a comparison of the plans with a
detailed accounting of actual results. The contractor was to collect this information from
demonstration project participants, SSA staff, contractor staff, and other sources. SSA


                                            C-2
envisioned using the process evaluation results to explain the impact results and
identify features of the experiment that were carried out as intended, problems
encountered and modifications that were made, and those features that were not
carried out successfully. The process evaluation was to document the timeline of the
implementation and critical events that occurred along the way. In addition, the process
study was to capture not only the extent that experimental factors were involved in the
interventions but also document how their experience was different from the services
and sequence of services received by the control population. The results of the
process evaluation were to form the basis of management strategies should youth
waivers become part of the SSI program.

Impact Evaluation

The impact analysis was to focus on the net effects of the treatment on participants
relative to the control group. The impacts of the programs would be based on
information gathered through administrative and other program records and follow-up
survey data. The contractor was to take into consideration the differences in program
models, policy contexts, target populations, and local economies and labor markets in
interpreting project site impacts and differences across project sites. The contractor
was to propose analytic methods that take into account the evaluation design and
method of sample selection in each project site. Appropriate methods to estimate
impacts for various subgroups were also to be proposed. SSA was interested in
measuring impacts across a range of outcomes. While it is important to assess the
effects of the programs on employment, educational, and SSI outcomes, it is also
critically important to understand program effects in other areas such as ameliorating or
alleviating barriers targeted by the different program models, changes in participants’
perceptions about challenges that influence working, and overall sense of well-being.
SSA was to seek Contractor guidance on the range of outcomes that should be
considered generally and in the context of specific program objectives. The analysis
was to take into consideration the extent to which specific program, policy, and
management characteristics appeared to be linked to impacts across project sites.

Cost-Benefit Analysis

A cost-benefit analysis was to be completed to understand the overall costs to the
Government for implementing these youth strategies. The contractor was to analyze
the costs and benefits, both financial and non-financial, of the programs, and provide
this analysis to SSA by June 2012. Costs include, but are not limited to, program
operating costs, waiver costs, administrative costs, averaged costs per participant, and
increased work-related costs, such as transportation, job coaches, or other work
supports. Benefits include, but are not limited to, increased economic output produced
by the recipients while in the program and post-program, increased tax payments,
reduced SSI payments, reduced dependence on other social service programs, and
other similar benefits. The analysis should detail all assumptions and calculations in
determining costs and benefits, including those pertaining to decay rates, and include a
sensitivity analysis of the major assumptions.


                                           C-3
                                                                      Appendix D

Contract Modifications for Services to Evaluate
Youth Transition Demonstration Projects
Modification   Effective             Purpose of Modification                     Award
                 Date
     1         2/21/2006   Authorization to subcontract with TransCen, Inc.         0
                           ($172,945)
     2         9/30/2006   Provide incremental funding for Contract Year 2.     $5,687,471
     3         9/15/2006   Increase year 1 funding. Change designated            $815,870
                           Government Contract Specialist.
     4         9/21/2006   Incorporate additional work under Tasks 5, 9,        $1,222,580
                           10, 11, 12, and 13. Change the Schedule of
                           Deliverables.
     5         9/26/2006   Correct the accounting and appropriation data            0
                           from Modification 2.
     6         9/30/2007   Incorporate incremental funding for Contract         $8,145,099
                           Year 3 for refinements to the evaluation design.
                           Provide program technical assistance to the
                           existing and new Youth Transition
                           Demonstration projects in Fiscal Years 2007-
                           2011. Incorporate evaluation design report
                           under Task 8.
     7         11/9/2007   Change designated Government Contract                    0
                           Specialist and approve key personnel
                           substitution.
     8         3/5/2008    Add Task 21, System Security Plan                    $717,016
                           Development and Implementation. Modify
                           Schedule of Deliverables to include Task 21.
                           Add Section H-12 Contractor Responsibilities
                           Regarding Personally Identifiable Identity. Add
                           funding for contract years 3-9 for the System
                           Security Plan Development implementation.
     9         9/18/2008   Modify Schedule of Deliverables to add               $9,889,277
                           deliverable 7.6. Update Memorandum of
                           Understanding agreements for three sites. Add
                           incremental funding to the contract for
                           previously negotiated year 4 costs and newly
                           negotiated costs for revisions in Task 7. Identify
                           new Contracting Officer Technical
                           Representative (COTR), alternate COTR and
                           new Government Contract Specialist.
                                                                         Appendix E

Suitability Factors
Section H-8 of the contract provides the procedures for obtaining suitability
determinations for contractor personnel performing under the contract. Specifically, the
contract states that suitability factors include the following.

•   Delinquency or misconduct in prior employment.

•   Criminal, dishonest, infamous, or notoriously disgraceful conduct.

•   The nature and seriousness of the conduct.

•   When the conduct occurred.

•   The applicant’s or employee's age at the time of the conduct.

•   The circumstances surrounding the conduct.

•   Intentional false statement, deception, or fraud on application forms.

•   Habitual use of intoxicating beverages to excess.

•   Abuse of narcotics, drugs, or other controlled substances.

•   Reasonable doubt as to the loyalty of the individual to the Government of the United
    States.

•   The kind of position for which the person is applying or in which the person is
    employed.

•   Contributing social and environmental conditions.

•   The absence or presence of rehabilitation or efforts towards rehabilitation.
                  Appendix F

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM


Date:      December 12, 2009                                                     Refer To: S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Margaret J. Tittel //s//
           Acting Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Contract with Mathematica Policy
           Research, Inc., for Services to Evaluate Youth Transition Demonstration Projects”
           (A-06-09-19061)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate
           OIG’s efforts in conducting this review. We have attached our response to the report findings
           and recommendations.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment




                                                        F-1
COM M ENTS ON THE OFFI CE OF THE I NSPECTOR GENERAL (OI G) DRAFT
REPORT, “ CONTRACT WI TH M ATHEM ATI CA POL I CY RESEARCH, I NC., FOR
SERVI CES TO EVAL UATE YOUTH TRANSI TI ON DEM ONSTRATI ON PROJECTS”
(A-06-09-19061)

We are pleased OIG found that we received the goods and servi ces for which we contracted. We
also appreciate that OIG pointed out areas where we can improve oversight of the Mathematica
Policy Research, Inc. (MPR) contract. However, we disagree with the recommendations
pertaining to research outcomes and decisions.

We cannot agree to these recommendations as they would require that we do analysis when we
know the data are incomplete. The resulting analysis would be flawed. In addition, we are
concerned with inaccuracies in this report, the failure to consider relevant information, and the
apparent lack of quantifiable support for various findings and recommendations. We discuss
these items under the indivi dual recommendations.

Our comments and responses to the specific recommendations are as follows.

Recommendation 1

Establish performance goals for the program benefits and/or administrative savi ngs expected to
result from continued project expenditures.

Comment

We disagree. Inserting performance goals with respect to administrative savi ngs or program
benefits during the demonstration is inappropriate. We would be required to use insufficient data
to decide if we should continue the demonstration project. The cost-benefit analysis performed
once the demonstration is complete will clearly show any administrative savi ngs or program
benefits. In the interim, the Youth Transition Demonstration (YTD) project should continue as
currently planned.

Section 1110 of the Social Security Act (Act) grants us the authority to conduct research to
inform policy makers on the prevention and reduction of dependency on the Supplemental
Security Income (SSI) program. Research we conduct under Section 1110 may evaluate whether
it is feasible for us to enact policies or whether a change in policy will have the desired effect.
Reasonable costs for designing, implementing, and evaluating the experiment are allowable and
appropriate.

The YTD project tests whether a specific set of interventions will help youth who receive (or are
at risk of receivi ng) benefits successfully transition to work and eventually leave (or remain off)
the benefit rolls. Reports from the Social Security Advi sory Board and the research and
disability communities strongly suggest that interventions focused on youth have the potential for
long lasting benefits due to the length of time we can expect them to be on the rolls.


                                                F-2
Approximately 175,000 children with disabilities under the age of 18 become eligible for SSI
each year. Many more become eligible at age 18, when the deeming of parental income and
assets no longer applies.* There are approximately 1.9 million SSI recipients under age 30. The
benefit outlays at stake are significant.

The YTD project will provi de our policy makers with information that will enable us to decide if
similar policy changes should be made at the national level. While we hope the interventions we
are testing will produce administrative savi ngs and program benefits, we cannot reliably predict
or measure YTD’ s success before completing the research.

Recommendation 2

Establish key milestones tied to performance metrics that objectively measure the progress in
achieving the benefits of this project to permit go/no-go decisions informed by quantifiable
results.

Comment

We disagree. OIG seems to have ignored the steps we took before proceeding with youth-related
research projects. Prior to entering into an agreement with MPR, we contracted with MDRC (a
research organization) to conduct an analysis and to provide a recommendation about whether we
should proceed with the project. This step was an extremely important decision point that
demonstrates that we decided to move forward with the project only after conducting a detailed,
thoughtful analysis. Your report did not acknowledge the above effort.

We use a four-step process to make go/no-go decisions for research projects.

1.       The first go/no-go decision involves whether we should pursue a research project. We
         conduct background research and design the research project. During the review of the
         MPR contract, we considered what information the agency and/or public wanted to
         research. In a Federal Register Notice (Vol. 66, No. 249), we solicited suggestions from
         the public on ways to support youth with disabilities in their transition to adulthood. We
         received 146 responses from parents of youths with disabilities, advocates, and
         representatives of organizations that serve youths. From these responses, we found that
         the public was interested in knowing if helping these disabled youths transition to
         adulthood would ultimately reduce program costs and improve their self-sufficiency.

         We considered previous research reported in academic and policy literature. We
         determined that, theoretically, transition support could be successful. We developed a
         logic model that we can use to design specific projects to assist in answering this
         question.


     *    It has been conservatively estimated that the average period of SSI eligibility for youth
          is 27 years.


                                                 F-3
2. The second go/no-go decision involves how to answer the research questions approved in
   Step 1.

   Part of the YTD decision included revi ewing the previ ous results from prior
   demonstration projects, including the Youth Continuing Disability Revi ew (YCDR) and
   the Disability Research Institute (DRI) projects. The YCDR project provi ded insight on
   how to run a demonstration project. The DRI project helped us determine how to
   transform the YTD project into a meaningful study. Based on the information we
   gathered, we approved movi ng forward with the YTD project, understanding we would
   incur significant up-front costs and may not see benefits until much later.

   Contrary to the findings in the report, the YCDR project is unrelated to the MPR contract.
   Also, by including the costs of the YCDR and DRI projects in your report (page 3), it
   appears that you are suggesting that we justify these prior contracts and related
   expenditures. We believe these projects are beyond the scope of this audit and should not
   be referenced.

   As a result, OIG attributed about $20 million (roughly half the funds on which the
   report’ s recommendations are based) to completely separate projects that have no direct
   connection to the YTD project.

   Considering these prior projects in the report is beyond the stated scope of the audit of the
   MPR contract. We provi ded information to OIG about the earlier projects only as
   supplementary material. OIG’ s inclusion of these costs will require us to justify the prior
   contract and prior project expenditures. Those contracts and expenditures are, in our
   opinion, beyond the scope of this audit.

3. The third go/no-go decision involves whether we will continue with the project once it is
   underway. The criteria we use is not program or administrative savi ngs, but rather if the
   project is on track to answer the research question.

   Several deliverables allow us to determine if the project is on track. These deliverables
   include process evaluations to determine if the interventions are implemented according
   to design, and impact evaluations to determine if there are either increases in youth
   leaving the rolls or increases in earnings. All of these evaluations require sufficient time
   to pass before an accurate assessment can be made. Conducting an audit early in the
   process will not yield accurate results.

   The YTD project has several key milestones which allow us to measure progress in
   answering the research question. These milestones include whether the random
   assignment was implemented timely and properly, if the program waivers are being used,
   how many youth are receivi ng benefits, and how many youth are worki ng. We conduct




                                            F-4
       monthly meetings with each of the sites and the contractors to ensure the project is
       progressing appropriately.

       We believe your report should acknowledge that we consistently maintained the integrity
       of the YTD project. For example, we terminated two non-random assignment sites as
       soon as we realized that we would not be able to get adequate information to assess their
       progress.

       GAO determined that our research design was appropriate and that we are likely to
       develop the desired data based on the YTD research design. OIG’ s citation of the GAO
       report confuses general observations about the history of demonstration projects in SSA
       with the way we currently run such projects. If OIG disagrees with GAO’ s assessment,
       the report should discuss why GAO’ s conclusions are incorrect. OIG’ s report should also
       have provi ded a listing of design changes they deem necessary for our project to be
       successful.

   4. The final go/no-go decision involves determining if we should expand the intervention or
      policy change to the national level. We consider administrative savi ngs and program
      benefits at this stage of the project.

       If the research data support expansion, we provi de the results to policy makers to
       formulate national policy. Ending the project early would result in incomplete and
       incorrect information. This is especially true for the YTD project. We provi de transition-
       age servi ces in the hope we will see positive outcomes later.

       We have already learned many things from this project and have informed policy makers
       about specific issues. Contrary to the report’ s assertion that “ SSA officials could not
       point to any policy changes implemented… as a result of YTD project expenditures.”
       (page 4), we did provi de our policy changes to OIG. One change we specifically
       mentioned to OIG was a change in section 301 (of P.L. 96-265) policy to continue cash
       benefits while youth participated in certain programs (which YTD first demonstrated). In
       June 2005, we completed the regulatory changes necessary to implement this practice
       nationally. Due to this change, we can continue to provi de SSI cash benefits to youth
       between the ages of 18 and 21 to support them while they complete their indivi dualized
       education plan.

       We agree with the report’ s conclusion that we should not fund further youth transition-
       related research until we have received the results from the current YTD project and we
       complete the cost-benefit analysis.

Recommendation 3

Continue YTD project funding only if performance metrics demonstrate that program results or
administrative savi ngs are worth the continued project costs.




                                               F-5
Comment

We disagree. We expect the YTD project to answer whether interventions successfully help
youth transition into adulthood. Terminating the project early would be unwise and
inappropriate. Information derived from an incomplete project would not yield reliable results.
This could potentially lead to misinformed policy that could actually harm youth. If we terminate
funding and later restart this initiative under a new project, we would duplicate our efforts and
double our costs.

The contract with MPR is for implementation of a research model designed to provi de answers to
specific research questions. The YTD contract with MPR is for the minimum amount of time
necessary to receive the basic information that will allow us to make informed policy decisions.

Determining, through rigorous research, whether or not a proposed policy change will work
accomplishes this and does not yield a zero return on investment

Agency funded research should help us meet our strategic goals. One of our strategic objectives
has been, and continues to be, to increase employment for people with disabilities by expanding
opportunities. The YTD project addresses this objective by determining whether a proposed
policy change is appropriate. The Government Accountability Office (GAO) agreed that the
current design of the YTD project would very likely answer our research questions.

Recommendation 4

Fund any continued YTD project site costs using methods specified in the Act (grants,
cooperative agreements, or contracts) that are negotiated and executed by SSA in a manner that
serves the best interests of the agency, can be appropriately enforced, and avoids payment of
unnecessary administrative fees.

Comment

We agree that all funding should follow the specifications of the Act, but we disagree with OIG’ s
conclusion that these specifications were not followed here. We are in full compliance with the
Act and the Federal Acquisition Regulation (FAR). Any suggestion that we are not in full
compliance is unsubstantiated and is the result of OIG’ s overly restrictive interpretation of the
Act’ s requirements.

Initially, the YTD project included seven separate projects funded by cooperative agreements
with the agency. As part of our oversight, we determined the initial arrangements would not
allow us to adequately answer our research questions. We contracted with MPR to implement
and evaluate the YTD project. Based on MPR’ s recommendation, we modified the YTD project
to use a stronger random assignment methodology. This modification increased the costs, but
ensured that we would be able to answer our research questions. MPR subsequently established
a Memorandum of Understanding (MOU) for servi ces at each project site.




                                               F-6
The Act and the FAR allow us to enter into contracts with a primary contractor. OIG apparently
believes the Act also prescribes how a contractor obtains servi ces. We disagree with that
interpretation of the statute. The primary contractor can acquire other servi ces vi a subcontracts,
MOUs, or other non-prohibited arrangements, as long as the terms of the contract are met. In this
instance, there is no conflict with the Act since we did not enter into MOUs with the servi ce
provi ders and MPR appropriately obligated Federal funds.

We received a legal opinion from our Office of General Counsel on this matter which states:
“ The OIG correctly states that SSA can acquire servi ces under section 1110 of the Act vi a a
contract, grant, or cooperative agreement. However, section 1110 of the Act does not prescribe
how a contractor acquires servi ces they need. SSA correctly, in compliance with the Act,
contracted with MPR to acquire servi ces through a competitive acquisition. MPR then used
MOUs to acquire the project site servi ces. This does not, to our knowledge, vi olate the Act.”

OIG questioned whether MPR negotiated fair and reasonable terms. However, OIG did not cite
any findings related to unfair or unreasonable terms. OIG actually found that we obtained all the
goods and servi ces for which we contracted. MPR’ s use of MOUs to obtain servi ces was both
reasonable and effective.

Your report states there was “ no documentation provi ded to support approval of these
agreements by SSA.” In fact, we provi ded several electronic versions of the MOUs to OIG staff,
documenting the edits and changes we made to these documents. In addition, we provi ded OIG
staff with electronic messages in which we approved final versions of the documents.

MPR’ s use of MOUs to arrange for project site servi ces saved government funds. Under the
terms of our agreement, we pay MPR an 8.5 percent administrative fee for subcontracted
servi ces, while we pay only a 4 percent fee for servi ces obtained vi a MOUs. The amounts
mentioned on pages 6 and 7 of the report would have been much higher under a subcontracting
arrangement.

Finally, we orally changed the reference to arranging for project servi ces. We are now
formalizing that change vi a Contract Modification 12. The modification is currently with MPR
for signature. We will ensure that changes in contractual language are made in a timelier manner
in the future.

Recommendation 5

Recover the $28,487 in excess fees related to YTD site payments and the $5,716 in unallowed
and questioned travel costs.

Comment

We agree. We have already recovered the $28,487 in excess fees and the $5,716 in unallowed
and questioned travel costs from MPR. We deducted the amounts from a recent invoice
submitted for payment (invoice #43-6209).



                                                F-7
Recommendation 6

Verify the accuracy of fixed fees claimed on future invoices before payment approval.

Comment

We agree. We will make every effort to ensure we use the correct rate to calculate the fixed fees.
If MPR receives an overpayment, we will recoup any overages during the final audit conducted at
contract closeout.

Recommendation 7

Ensure subcontractors listed on invoices have been approved as authorized subcontractors before
certifying an invoice for payment.

Comment

We agree. We will ensure subcontractors listed on invoices are approved as authorized
subcontractors before certifying an invoice for payment.

Recommendation 8

Ensure contractor personnel (including subcontractors) assigned to the contract receive a
favorable suitability determination before allowing the indivi dual to work on the project.

Comment

We agree. We will ensure all contractor personnel (including subcontractors) receive a favorable
suitability determination before they work on the project.

Our Center for Personnel Security and Project Management obtained favorable suitability
determinations for all required contractor employees who worked on the YTD contract.




                                                F-8
                                                                       Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Ron Gunia, Director, Dallas Audit Division

   Jason Arrington, Audit Manager

Acknowledgments

In addition to those named above:

   Lela Cartwright, Senior Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-06-09-19061.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
